      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




October 28, 2009

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of High-Dollar Payments for Virginia and West Virginia Outpatient
               Claims Processed by National Government Services for Calendar Years
               2003–2005 (A-03-07-00015)


Attached is an advance copy of our final report on high-dollar payments for Virginia and West
Virginia outpatient claims processed by National Government Services (NGS) for calendar years
2003–2005. We will issue this report to NGS within 5 business days. This audit was part of a
nationwide review of payments for outpatient services of $50,000 or more (high-dollar
payments).

Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that a service or procedure was performed.

Our objective was to determine whether the high-dollar Medicare payments that NGS made to
providers for outpatient services were appropriate.

All 46 high-dollar payments that NGS made to providers were inappropriate. The 46 payments
included overpayments totaling $3,510,611. Providers had not refunded $2,329,675 in
overpayments for 35 claims at the time of our audit. Providers received these overpayments by
billing for excessive units of service or by billing for the wrong service or procedure.

We recommend that NGS recover the estimated $2,329,675, and any additional amounts, for the
35 identified overpayments and use the results of this audit in its provider education activities.

In written comments on our draft report, NGS stated that it had recouped $2,331,586 for the 35
identified overpayments, $1,911 more than originally estimated, and that it was using its data
analysis reports to identify similar billing errors.
Page 2 – Charlene Frizzera

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-07-00015.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services, Region III
                                                                       Public Ledger Building, Suite 316
                                                                       150 S. Independence Mall West
                                                                       Philadelphia, PA 19106-3499



October 29, 2009

Report Number: A-03-07-00015

Ms. Sandy Miller
President
National Government Services
8115 Knue Road
Indianapolis, Indiana 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of High-Dollar Payments for Virginia and West
Virginia Outpatient Claims Processed by National Government Services for Calendar Years
2003-2005.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov or contact Bernard Siegel,
Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov. Please refer
to report number A-03-07-00015 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandy Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF HIGH-DOLLAR PAYMENTS
 FOR VIRGINIA AND WEST VIRGINIA
       OUTPATIENT CLAIMS
     PROCESSED BY NATIONAL
   GOVERNMENT SERVICES FOR
   CALENDAR YEARS 2003–2005



                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-03-07-00015
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). The intermediaries use the Fiscal Intermediary
Standard System and CMS’s Common Working File to process payments for claims. The
Common Working File can detect certain improper payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that a service or procedure was performed.

National Government Services (NGS), formerly United Government Services, was the Medicare
fiscal intermediary for Virginia and West Virginia during calendar years (CY) 2003–2005.
NGS processed more than 12 million outpatient claims for Virginia and West Virginia, 46 of
which resulted in payments of $50,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether the high-dollar Medicare payments that NGS made to
providers for outpatient services were appropriate.

SUMMARY OF FINDINGS

All 46 high-dollar payments that NGS made to providers were inappropriate. The 46 payments
included overpayments totaling $3,510,611. Providers refunded $554,164 of this amount prior to
our audit and $626,772 as a result of our audit. Providers had not refunded $2,329,675 in
overpayments for 35 claims at the time of our audit.

Providers received these overpayments by billing for excessive units of service or by billing for
the wrong service or procedure. NGS made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the Common Working File had sufficient edits in place during
CYs 2003–2005 to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that NGS:

      recover the estimated $2,329,675, and any additional amounts, for the 35 identified
       overpayments and

      use the results of this audit in its provider education activities.


                                                   i
NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS stated that it had recouped $2,331,586 for the 35
identified overpayments, $1,911 more than originally estimated, and that it was using its data
analysis reports to identify similar billing errors.

NGS’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Medicare Fiscal Intermediaries..............................................................................1
              Claims for Outpatient Services ..............................................................................1
              National Government Services ..............................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2
               Objective ...............................................................................................................2
               Scope......................................................................................................................2
               Methodology ..........................................................................................................2

FINDINGS AND RECOMMENDATIONS ..............................................................................3

          FEDERAL REQUIREMENTS..........................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................................................3

          CAUSES OF OVERPAYMENTS.....................................................................................3

          FISCAL INTERMEDIARY PREPAYMENT EDITS ......................................................4

          RECOMMENDATIONS...................................................................................................4

          NATIONAL GOVERNMENT SERVICES COMMENTS ..............................................4

APPENDIXES

          A: OVERPAYMENTS NOT REFUNDED

          B: NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments (providers). The intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments.

To process providers’ claims, the intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File. The Common Working File can detect certain improper
payments during prepayment validation.

In calendar years (CY) 2003–2005, fiscal intermediaries processed and paid more than
409 million outpatient claims, 1,243 of which resulted in payments of $50,000 or more (high-
dollar payments). We consider such claims to be at high risk for overpayment.

Claims for Outpatient Services

Providers generate the claims for outpatient services provided to Medicare beneficiaries.
Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that the service or procedure was performed.

National Government Services

National Government Services (NGS), formerly United Government Services, was the Medicare
fiscal intermediary for Virginia and West Virginia during CYs 2003–2005. 1 NGS processed
more than 12 million outpatient claims for Virginia and West Virginia, 46 of which resulted in
high-dollar payments.




1
 NGS was formed when AdminaStar Federal, Anthem Health Plans of New Hampshire, Associated Hospital
Service, Empire Medicare Services, and United Government Services merged on January 1, 2007. NGS has offices
in Indianapolis, Indiana; Louisville, Kentucky; and Charleston, West Virginia.


                                                     1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the high-dollar Medicare payments that NGS made to
providers for outpatient services were appropriate.

Scope

We reviewed the 46 high-dollar payments for outpatient claims that NGS processed for Virginia
and West Virginia providers during CYs 2003–2005. We limited our review of NGS’s internal
controls to those applicable to the 46 payments because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file, but we did not assess the completeness of the file.

We conducted our audit work from November 2008 through April 2009. Our audit included
contacting NGS and the 17 providers that received the 46 high-dollar Medicare payments.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws and regulations;

       used CMS’s National Claims History file to identify outpatient claims with high-dollar
        payments;

       reviewed available Common Working File data for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims and
        whether payments remained outstanding at the time of our audit;

       contacted the providers that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect; and

       coordinated the calculation of overpayments and discussed the results of our review with
        NGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2
                          FINDINGS AND RECOMMENDATIONS

All 46 high-dollar payments that NGS made to providers were inappropriate. The 46 payments
included overpayments totaling $3,510,611. Providers refunded $554,164 of this amount prior to
our audit and $626,772 as a result of our audit. Providers had not refunded $2,329,675 in
overpayments for 35 claims at the time of our audit.

Providers received these overpayments by billing for excessive units of service or by billing for
the wrong service or procedure. NGS made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the Common Working File had sufficient edits in place during
CYs 2003–2005 to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
providers to report claims for outpatient services using Healthcare Common Procedure Coding
System codes. CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 4,
section 20.4, states: “The definition of service units . . . is the number of times the service or
procedure being reported was performed.” In addition, chapter 1, section 80.3.2.2, of this
manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” requires the fiscal intermediary to maintain
adequate internal controls over Medicare automatic data processing systems to preclude
increased program costs and erroneous and/or delayed payments.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

NGS made 35 overpayments totaling $2,329,675, which providers had not refunded at the time
of our audit.

      For 32 of the 35 overpayments, providers billed NGS for excessive units of service. As a
       result, NGS paid providers $2,280,976 when it should have paid $209,434, resulting in
       overpayments totaling $2,071,542.

      For the three remaining overpayments, providers billed NGS for the wrong service or
       procedure. As a result, NGS paid the providers $264,121 when it should have paid
       $5,988, resulting in overpayments totaling $258,133.

Appendix A details each provider overpayment not refunded at the time of our audit.

CAUSES OF OVERPAYMENTS

The providers attributed the incorrect payments to clerical errors made by their billing staffs and
to problems with incorrect data in their billing systems. In addition, during CYs 2003–2005,
NGS did not have sufficient prepayment or postpayment controls to identify overpayments at the


                                                 3
payment level, and the Common Working File prepayment process lacked edits to detect and
prevent excessive payments. In effect, CMS relied on providers to notify the intermediaries of
excessive payments and on beneficiaries to review their “Medicare Summary Notice” and
disclose any overpayments. 2

FISCAL INTERMEDIARY PREPAYMENT EDITS

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. This edit suspends high-dollar outpatient payments and requires
intermediaries to determine the legitimacy of the payments.

NGS stated that it had an edit in place during our audit period that suspended for prepayment
review all claims with payment amounts greater than $150,000. Beginning January 3, 2006,
NGS reduced the edit limit to payment amounts greater than $50,000. NGS reviewed claims that
exceeded the limit and verified the units and amount billed with the providers. If the providers
verified that the units and amount billed were correct, NGS processed the claims. If the
providers did not verify the units and amount billed, NGS returned the claims to the providers for
correction.

RECOMMENDATIONS

We recommend that NGS:

       recover the estimated $2,329,675, and any additional amounts, for the 35 identified
        overpayments and

       use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS stated that it had recouped $2,331,586 for the 35
identified overpayments, $1,911 more than originally estimated, and that it was using its data
analysis reports to identify similar billing errors.

NGS’s comments are included in their entirety as Appendix B.




2
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
outpatient services. The notice explains the services billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.


                                                         4
APPENDIXES
                                                    APPENDIX A: OVERPAYMENTS NOT REFUNDED

                                                       Provider Billed for Excessive Units of Service
Claim No.                  Service Billed              Quantity Billed      Quantity Performed     Paid Amount        Corrected Amount      Overpayment
 15 - 194   Laminectomy                                                 6                      1            $61,980               $10,418            $51,562
 15 - 197   Oxaliplatin                                               624                     72             55,517                 8,424             47,093
 15 - 211   Heart catheterization                                     481                      1            117,035                 2,702            114,333
 15 - 223   Laminectomy                                                 4                      1             50,944                24,045             26,899
 15 - 224   Paclitaxel                                                730                     26             56,386                 1,880             54,506
 15 - 234   Paclitaxel                                                630                     22             52,146                 4,794             47,352
 15 - 241   Pactitarel                                                765                     30             60,983                 5,971             55,012
 15 - 237   Oxaliplatin                                               712                     72             57,492                 5,241             52,251
 15 - 238   Oxaliplatin                                               728                     74             58,786                 5,349             53,437
 15 - 243   Factor VIII                                           132,000                 12,400            135,592                13,651            121,941
 15 - 208   Oxaliplatin                                               400                     40             50,218                 2,891             47,327
 15 - 209   Oxaliplatin                                               600                     60             50,569                 5,528             45,041
 15 - 213   Oxaliplatin                                               600                     60             53,540                 8,126             45,414
 15 - 214   Oxaliplatin                                               600                     60             52,894                 7,578             45,316
 15 - 215   Oxaliplatin                                               600                     60             53,547                 1,363             52,184
 15 - 216   Oxaliplatin                                             1,200                    120             99,154                 8,775             90,379
 15 - 217   Oxaliplatin                                               800                     80             66,152                 5,886             60,266
 15 - 218   Oxaliplatin                                               800                     80             66,118                 5,852             60,266
 15 - 225   Cytomegalovirus                                           200                      1            131,433                   771            130,662
 15 - 226   Oxaliplatin                                               800                     80             66,521                 6,216             60,305
 15 - 227   Oxaliplatin                                               800                     80             65,878                 5,570             60,308
 15 - 228   Oxaliplatin                                               800                     80             67,054                 6,516             60,538
 15 - 229   Oxaliplatin                                               800                     80             67,430                 6,815             60,615
 15 - 230   Oxaliplatin                                               800                     80             66,654                 6,815             59,839
 15 - 231   Oxaliplatin                                               800                     80             68,103                 7,487             60,616
 15 - 232   Oxaliplatin                                               900                     90             72,037                 6,296             65,741
 15 - 233   Oxaliplatin                                               900                     90             72,231                 6,433             65,798
 15 - 242   Fluorodeoxyglucose                                        400                      2            129,399                   877            128,522
 15 - 244   Oxaliplatin                                               900                     90             74,368                 7,219             67,149
 15 - 245   Oxaliplatin                                               800                     80             66,727                 6,282             60,445
 15 - 246   Oxaliplatin                                               800                     80             66,123                 5,922             60,201
 15 - 247   Oxaliplatin                                               800                     80             67,965                 7,741             60,224
    32                       Subtotal                                                                    $2,280,976              $209,434         $2,071,542

                                                      Provider Billed for Wrong Service or Procedure
Claim No.                  Service Billed             Procedure Billed      Procedure Performed    Paid Amount        Corrected Amount      Overpayment
 15 - 212   Pegfilgrastim / Octreotide                     J2505                   J2353                   $77,021                $1,784            $75,237
 15 - 219   Fluorodeoxyglucose / Darbepoetin alfa          C1775                   Q0137                   128,271                 1,363            126,908
 15 - 207   Alemtuzumab / Capecitabine                     J9010                   J8520                    58,829                 2,841             55,988
     3                       Subtotal                                                                     $264,121                $5,988           $258,133

   35                         Total                                                                      $2,545,097             $215,422          $2,329,675
                                                                                                      Page I of2

        APPENDIX B: NATIONAL GOVERNMENT SERVICES COMMENTS




.~atlonal Cl~vernme"t
 ~           services
    POBox 4846
    Sy,.ru se. N e w Yorl< 13221-4846 

                                                                                  Medicare
    ",,,,"w.NCSMt'd..laore,con, 





   September 2, 2009

   Mr. Bernard Siegel 

   Office of Audit Services, Region m 

   150 S. Independence Mall West 

   Philadelphia, P A 19106-3499 


   Re: NGS Response to OIG audit A-03--07-00015 "Review of High-DoUar Payments for Virginia and
   West Virginia Outpatient C laims Processed by Nation al Government Services for Calendar Years 2003
   -2005."

   Dear Mr. Siegel:

   This letter is in resp onse to draft report A-03-07-0001S, e n titled" Review of High-Dollar Payments for
   Virginia and West Virginia Outpatient Claims Processed by Nation al Government Services for
   Calendar Years 2003 - 2005."

  Medicare guidance requires providers to submit accu rate claims for Outpa tient services using the
  appropriate Healthcare COmIllon Procedure Coding System codes and to report units of services as the
  number o f times that a service or p rocedure was performed. The objective o f this a u di t was to
  determine whether the high-dolla r Medicare p aym ents that NGS made to prOViders for O utpatient
  ser vices were appropriate.

   During tltis period, NeS p rocessed more th"n 12 milUon outpatient claims for Virginia and West
   V irginia, 46 of which resulted in payments or $50,000 or more (high-doUa r payments). According to
   your findings, aU 46 h igh-dollar payments that NGS m ade were inapproprinte. These 46 payments
   resulted in overpayments totaling $3, 510,611. At the time of this audit, providC!rs refunded a portion
   of the overpayment dolla rs leaving $2,329,675 in overpayments to be recouped (35 claims).

  The overpayments occurred due to providers billing for excessive units of service o r biUing for the
  wrong service o r procedure. NGS made these overpayments because neither the Fiscal Intermediary
  S h a red. System nor the Common Working File had sufficient edits in p lace during CYs 2003- 2005 to
  de tect and preven t the overpayments.

  Your recommendation is that NGS recovers $2,329,675 for the identified overpaym ents and use the
  results of this a ud it in its provider education activities. In res ponse to you r recommendations NGS
  h as d one the following:
                                                                                                   Page 2 of2




    • 	 As of 8/27/09, NGS has recouped a tolal of $2,331,586 from providers which the 35
        overpayments occurred. The overpayment amount recouped is slightly different than the
        amolIDt quoted initially to the OIG auditor ($1,911 to be exact). However, this is due to the fact
        that the original adjustment amounts provided were estimates only based on claims processed
        thro ugh the test system and not actual production. Therefore, once the adjustments were
        processed by the provider the payment amounts varied slightly on m ost of the adjustments.

   • 	 NGS has a lso discussed this particular audit with our Provider Outreach and Clinical Education
       department. Through data analysis reports, NGS Is currently addressing these types of billing
       issues. OUT POCE and Medical Review departments currently review data analysis reports
       which identify provider aberrancies. After the data is analyzed, POCE notifies the proViders,
       in w riting, and request that they either explain or correct the discrepancy. We believe through
       this method of education, we are identifying and addresSing this area of concern.

You may submit any additional questions and/o r concerns to the NGS Medicare mailbox;
ngs.rnedjcQre@anthcm.com.




Staff Vice President

Claims Management

cc; 	 Pam Glenn, Part AJRHH1 C laims Director,
   Sandra Logan, Claims Manager
